<html>
<title> - AFGHANISTAN AND PAKISTAN: TRANSITION AND THE WAY FORWARD</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                       AFGHANISTAN AND PAKISTAN:
                     TRANSITION AND THE WAY FORWARD

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 27, 2011

                               __________

                           Serial No. 112-83

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
70-949                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4126312e012234323529242d316f222e2c6f">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York<greek-l>As 
    of October 5, 2011 deg.
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Hillary Rodham Clinton, Secretary of State, U.S. 
  Department of State............................................     7

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Hillary Rodham Clinton: Prepared statement.........    10

                                APPENDIX

Hearing notice...................................................    46
Hearing minutes..................................................    47
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    49
The Honorable Ann Marie Buerkle, a Representative in Congress 
  from the State of New York: Prepared statement.................    51
Written responses from the Honorable Hillary Rodham Clinton to 
  questions submitted for the record by:
  The Honorable Ann Marie Buerkle................................    52
  The Honorable Karen Bass, a Representative in Congress from the 
    State of California..........................................    63


        AFGHANISTAN AND PAKISTAN: TRANSITION AND THE WAY FORWARD

                              ----------                              


                       THURSDAY, OCTOBER 27, 2011

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 o'clock a.m. 
in room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order.
    After recognizing myself and the ranking member, Mr. 
Berman, for 7 minutes each for our opening statements, I will 
recognize the chairman and the ranking member of the Middle 
East and South Asia Subcommittee for 3 minutes each for their 
statements.
    We will then hear from our witness, the distinguished 
Secretary of State--welcome home and happy belated birthday--
who will summarize her prepared statement before we move to the 
questions and answers with members under the 5-minute rule.
    Without objection, the witness' prepared statement will be 
made a part of the record. Members may have 5 days to insert 
statements and questions for the record subject to the length 
limitation in the rules. And we are getting started right away 
because we will have votes and we like to be interrupted 
because of the democratic process.
    Madam Secretary, welcome to our committee. We are pleased 
to have you here to assess U.S. policy and progress in 
Afghanistan and Pakistan.
    In 2009, President Obama initiated a surge in Afghanistan, 
resulting in approximately 90,000 U.S. troops there now. The 
President underscored the fundamental connection between our 
war effort in Afghanistan and the extremist safe havens in 
Pakistan and defined the goals as disrupting, dismantling, and 
defeating al-Qaeda and its extremist allies.
    In the 2010 review, the President noted that, ultimately, 
it is the Afghans who must secure their country and it is 
Afghans who must build their nation. It will take time to 
ultimately defeat al-Qaeda, and it remains a ruthless and 
resilient enemy bent on attacking our country. But make no 
mistake, we are going to remain relentless in disrupting and 
dismantling that terrorist organization.
    However, President Obama announced the withdrawal of 10,000 
U.S. troops from Afghanistan by this year's end, with another 
23,000 to be withdrawn by the rather curious date of September, 
2012. Therefore, Madam Secretary, we must ask, where are we in 
achieving the strategic objectives outlined by the President? 
Progress in the fight is undeniable, but our gains remain 
fragile. On the one hand, the U.S. is negotiating with the 
Haqqani network; and yet, on the other, we are attempting to 
destroy the Haqqani network.
    There have been some unwelcome developments since the 
President's announcement 4 months ago, such as the multiple 
high-profile assassination of major leaders in Afghanistan. 
Turnover to the Afghan national security forces remains a 
significant challenge in some of the key contested areas. And 
on the counternarcotics front the United Nation's Office on 
Drugs and Crime reported a 7 percent increase in opium poppy 
crop cultivation, citing the link between insecurity and opium 
cultivation.
    This leads us to the broader question: What are the 
priorities for advancing our national security interests in 
Afghanistan and Pakistan?
    I remain troubled by Iran's threatening and unhelpful role 
in Afghanistan. So I ask, what additional pressure are we 
bringing to bear to offset the Iranian influence in 
Afghanistan?
    The most important long-term aspect of the American 
relationship with Afghanistan today is the strategic 
partnership declaration under negotiation with Kabul. During 
the negotiations over the strategic framework agreement and the 
status of forces agreement with Iraq, the previous 
administration extensively engaged and consulted the Congress 
in a bipartisan manner. We are disappointed that a similar 
level of outreach, engagement, consultation, transparency on 
this critical issue has been decidedly absent on the current 
Afghanistan negotiations.
    So I am capitalizing on your appearance today, Madam 
Secretary, to secure information on the agreement being 
negotiated. What are our priority components of this? What are 
the primary components of this negotiation? Do you anticipate a 
total withdrawal like we are about to do in Iraq, or will we 
remain until we train and perhaps have a modest 
counterterrorism presence?
    How will it address critical weaknesses within the 
political system such as too much power concentrated in the 
presidency and overdependence on foreign aid. What reforms are 
we requesting to fix these flaws? Are we insisting on the right 
to pursue insurgents who threaten us and our interests? Are we 
preserving our tactical and operational flexibility?
    The Afghan Government must be pushed to make the necessary 
steps to become a reliable partner for the U.S. over the long 
term, and I know that you know that as well. Too much American 
blood and treasure have been invested in Afghanistan for us to 
walk away or to have a government that threatens American 
interests.
    And turning to Pakistan, our relations continue to suffer 
from a cascading series of crises.
    First, there was the bitter Raymond Davis affair involving 
the U.S. Embassy worker who shot and killed two Pakistani men 
he believed was robbing him. Davis was correctly released to 
U.S. custody. The ultimate disgrace was the discovery of Osama 
bin Laden inside Pakistan and living adjacent to a Pakistani 
military facility. And now we see the brazen attacks by 
Islamabad's armed proxies against the U.S. Embassy and other 
U.S. targets in Afghanistan.
    Our two countries are at a crossroads. We cannot sustain a 
partnership with Islamabad if it pursues policies that are 
hostile to U.S. interests and jeopardize American lives. 
Legislation developed in our committee and carried by the 
Appropriations Committee puts tough conditions on U.S. 
assistance to Pakistan funded through State Department 
accounts. The Pakistan security establishment must work more 
closely with us to eliminate al-Qaeda and its affiliates, while 
cooperating more fully with our goals to help stabilize 
Afghanistan.
    Can the relationship be salvaged? Can our strategic 
objectives in Afghanistan and Pakistan be brought into better 
alignment? It is hard to be optimistic. All of the options on 
the table appear deeply unappetizing. All run the risk of being 
ineffectual, counterproductive, or both.
    Madam Secretary, we look to you to help clarify for us the 
strategic choices that we, Pakistan, and Afghanistan face at 
this profoundly challenging time for the future of peace and 
stability in South Asia. We are especially interested in 
hearing about your very recent trip to the region.
    I thank you for appearing before our committee today. I 
look forward to working with you to advance our critical 
national security interests in this increasingly pivotal 
region.
    I yield back the balance of my time; and I am pleased to 
yield to my friend, Mr. Berman, the ranking member, for his 
opening statement.
    Mr. Berman. Thank you very much, Madam Chairman.
    Before I start on my opening statement, I would like to 
just let the committee know that our former colleague, Howard 
Wolpe, passed away on Tuesday. He served seven terms in 
Congress. Most of that time, he chaired the Africa Subcommittee 
of this committee, and we will remember his dedication to 
Africa. He authored the sanctions legislation against South 
Africa's apartheid government, led the effort to override 
President Reagan's veto of that legislation.
    He retired from Congress in 1992, but, as we all know, he 
stayed deeply engaged in African affairs, serving as President 
Clinton's Special Envoy to Africa's Great Lakes Region and 
President Obama's special advisor for that region as well. We 
have not only lost a man who made a difference in public policy 
but a friend with a profound mind and an engaging and charming 
wit. So thank you, Madam Chairman.
    Thank you, also, Madam Chairman, for calling this important 
hearing on the administration's strategy for Afghanistan and 
Pakistan.
    I would like to begin by commending Secretary Clinton for 
the leadership that she and the President exhibited on Libya. 
As a result of your efforts, we were able to prevent a 
humanitarian catastrophe of unimaginable proportions and 
ultimately create the conditions for the Libyan people to oust 
one of the world's most brutal dictators.
    Secretary Clinton, you have just returned from a trip to 
Afghanistan and Pakistan, so this is a particularly good time 
to explore what remains one of the most important and complex 
foreign policy challenges of our time.
    In 2009, when the Obama administration took office, I was 
very encouraged by the President's commitment to providing 
sufficient resources to our military forces, diplomats, and aid 
workers in Afghanistan and to renewing our partnership with the 
civilian leadership of Pakistan. However, as I have 
communicated to you in recent months, I am deeply concerned 
about our rapidly deteriorating relationship with Islamabad and 
how that impacts our efforts in Afghanistan.
    Soon after the bin Laden raid, news reports indicated that 
Pakistani intelligence tipped off militants operating IED 
factories on Pakistani soil, factories that are making bombs to 
kill U.S. troops. More recently, Admiral Mullen asserted that 
the Haqqani network, a group believed to be responsible for the 
September 10 truck bomb that wounded 77 American soldiers and 
the September 13 attack against the U.S. Embassy in Kabul, is a 
``veritable arm of Pakistan's ISI.'' These events raise very 
serious questions about Pakistan's commitment to work with us 
to defeat the terrorists that threaten Pakistan and the U.S. 
and coalition forces in Afghanistan. This behavior must stop.
    In 1957, President Eisenhower remarked that the United 
States was ``doing practically nothing for Pakistan except in 
the form of military aid.'' He voiced concern that the 
``American commitment to Pakistan's military was perhaps the 
worst kind of plan and decision we could have made. It was a 
terrible error, but we now seem hopelessly involved in it.''
    Sadly, these words remain true today.
    Given the current climate, I support the administration's 
decision to pause security assistance to Islamabad until 
Pakistan shows real progress in combating terrorist groups. I 
believe we should reevaluate all military aid to Islamabad to 
ensure that it is meeting its intended purpose. But, at the 
same time, I think it would be a terrible mistake to slash our 
economic assistance to Pakistan. It is in our long-term 
interest to support the continued development of Pakistan's 
civil society and nascent democratic institutions. These are 
the critical building blocks of a peaceful and prosperous 
Pakistan and, ultimately, a stable Afghanistan and South Asia.
    We must continue to find ways to partner with the people of 
Pakistan, who have become a casualty of misguided policies 
pursued by Pakistan's military and by civilian leaders 
seemingly unwilling to lead. Pakistanis are reminded of these 
failings every day by constant energy shortages, a never-ending 
financial crisis, political turmoil, and rising extremism.
    The United States can't solve all of Pakistan's many 
problems, but we can make a difference. The recently completed 
renovation of the Tarbela Dam funded by the United States means 
that 1 million more Pakistanis will have access to electricity.
    We should also take steps to strengthen Pakistan's private 
sector by creating an American-Pakistan enterprise fund which 
won't cost the American taxpayers a single dime. Madam 
Secretary, I know you have expressed support for this concept.
    In these difficult economic times, it is critical that any 
assistance that we provide be sustainable and completely 
transparent both to the Pakistanis and to the American people 
who pay for it. This is true not just in Pakistan but with all 
of our international programs. To those who suggest that 
foreign assistance is a luxury we can no longer afford, I say 
America cannot afford a course of isolation and retreat. Rather 
than making indiscriminate cuts, we need to modernize and 
reform our assistance to make it more efficient, more 
effective, and better at serving our national interests.
    Let me just touch briefly on transition and reconciliation 
in Afghanistan.
    I support the President's decision to withdraw all combat 
troops by 2014, but we must ensure that the gains made after 10 
years of fighting will not be lost. The strategic partnership 
declaration, which I look forward to learning more about, will 
serve as an important symbol of our long-term commitment to the 
Government and people of Afghanistan, and it is critical to 
regional security and to a successful transition.
    While I appreciate the progress being made to cement our 
relationship with Kabul, I continue to have reservations about 
efforts to reconcile with the Taliban and al-Qaeda-affiliated 
groups such as the Haqqani network. As much as we all want the 
war to end and to bring our troops home, I am concerned that 
allowing these extremist groups to assume leadership positions 
in the government would threaten the gains we have made on 
counterterrorism, women's rights, and counternarcotics. Even if 
these groups were sincere in their desire to reconcile--and I 
am skeptical that they are--Pakistan remains the spoiler.
    Islamabad may share our general goal of a stable and secure 
Afghanistan, but I think we have very different definitions of 
stability. Ultimately, we will not be successful in 
Afghanistan, militarily or politically, unless Pakistan plays a 
constructive role in allowing Afghans to determine the future 
of Afghanistan for themselves. Madam Secretary, how will we 
ever succeed in Afghanistan as long as Pakistan provides 
sanctuary for Afghan insurgents?
    Once again, I thank you for being here today and I look 
forward to your testimony. And I do, just in closing, have to 
say that, because a bill of mine is in a Transportation and 
Infrastructure Aviation Subcommittee roundtable today, there 
will be times when I may have to leave, but I will certainly 
come back and read your testimony as well.
    Chairman Ros-Lehtinen. I thank the gentleman for his 
opening statement.
    Mr. Chabot is recognized for 3 minutes. He is the chair of 
the Subcommittee on the Middle East and South Asia.
    Mr. Chabot. Thank you, Madam Chair, for calling this 
important hearing; and we welcome you here, Ms. Secretary of 
State.
    Although it is not the expressed topic of our hearing, I 
would like to say a word on Iraq.
    I am very concerned by the President's recent announcement 
of a complete withdrawal by the end of the year. Fulfilling a 
campaign promise at the expense of American national security 
interests is, at best, strategic neglect and, at worst, 
downright irresponsible. It seems painfully clear to me and to 
many analysts that the Iraqi Army is not yet prepared to defend 
Iraq from the threat posed by its nefarious neighbor to the 
east.
    The administration's current policy appears to focus on 
normalizing our relationship with Iraq, but the situation in 
Iraq is not normal. Indeed, I fear that our objective is no 
longer to ensure Iraq is stable but merely to withdraw our 
forces by the end of this year in order to meet a political 
time line.
    Saying that Iraq is secure, stable, and self-reliant, as 
Deputy National Security Advisor Denis McDonough recently did, 
does not make it so. And to borrow a quote from you, Madam 
Secretary, when you were serving in the other body, it requires 
``the willing suspension of disbelief'' to accept that 
withdrawing our forces from Iraq at a time when Iranian agents 
seek to harm at every turn our country and its allies advances 
our strategic interest.
    Although I understand that Iraq is a sovereign country, I 
believe that there is much more that this administration could 
have done to secure a more realistic troop presence beyond the 
end of this year.
    Accordingly, I would like to echo Senator Lieberman's 
recent call to reopen negotiations with the Iraqis. It would be 
a failure of colossal proportions to withdraw our forces before 
Iraq is ready to stand on its own.
    This decision also offers a disturbing insight into the 
administration's definition of ``conditions-based withdrawal'' 
which is, of course, its policy in Afghanistan. When asked 
recently whether not leaving a residual force in Iraq endangers 
hard-fought gains, he responded, and I quote, ``I think that 
they should have raised those issues when President Bush agreed 
to the agreement to withdraw troops by the end of this year.''
    Is this what we should expect of an Obama administration in 
2014 if conditions in Afghanistan do not justify withdrawal?
    I hope you will address exactly what conditions we would 
like to see before we withdraw and what contingency planning 
the administration is conducting should indeed we get to 2014 
and discover the conditions in Afghanistan have not progressed 
as quickly as we had hoped that we would.
    As one reporter recently observed, it used to be that 
American withdrawal was conditioned on success. Now it seems 
withdrawal has become the definition of success. If that is the 
case, success in Afghanistan will feel a lot like failure.
    I yield back.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Chabot.
    We will now welcome our witness. It is an honor to welcome 
the Secretary to the committee today.
    The Honorable Hillary Rodham Clinton has served as the 67th 
Secretary of State for the United States since January 21, 
2009, the latest chapter in her four-decade career in public 
service. She has served previously, as all of us know, as a 
United States Senator from the State of New York, as First Lady 
of the United States and of the State of Arkansas, and as an 
attorney and law professor.
    Madam Secretary, without objection, your full statement 
will be made a part of the record. If you could be so kind as 
to summarize your written remarks, we can then move directly to 
the question-and-answer discussion under the 5-minute rule in 
hopes that we can get as many members as possible before you 
have to depart.
    Madam Secretary, welcome back; and the floor is yours.

STATEMENT OF THE HONORABLE HILLARY RODHAM CLINTON, SECRETARY OF 
                STATE, U.S. DEPARTMENT OF STATE

    Secretary Clinton. Thank you very much, Madam Chairwoman; 
and to Ranking Member Berman and to the members of the 
committee, I appreciate this opportunity once again to appear 
before you.
    I want to start by recognizing the concerns that many of 
you have about Afghanistan and Pakistan policy. You and the 
American people are right to ask questions. But I think it is 
also important, as the chairwoman alluded to in her opening 
statement, to recognize the significant results that our policy 
has already produced.
    Osama bin Laden and many of his top lieutenants are dead. 
The threat remains real and urgent, especially from al-Qaeda's 
affiliates, but the group's senior leadership has been 
devastated and its ability to conduct operations greatly 
diminished. Many of our successes against al-Qaeda would not 
have been possible without our presence in Afghanistan and 
close cooperation with Pakistan.
    Now, in Afghanistan, we still face a difficult fight, but 
coalition and Afghan forces have reversed the Taliban momentum 
in key areas. Afghan security forces have a long way to go, but 
they are taking more responsibility every day. And while the 
country still faces enormous challenges from poverty and 
corruption, our development efforts have bolstered the economy 
and improved lives.
    You know the statistics. Ten years ago, fewer than 1 
million students enrolled in Afghan schools, all of them boys. 
Now more than 7 million, nearly 40 percent of them girls. 
Afghans are better positioned to chart their own future.
    I offer these very brief examples as a reminder that, as 
President Obama has said, we are meeting our commitments and we 
are making progress toward our goals and we cannot let up. We 
should build on our momentum, not undercut our progress.
    Now, I will be the first to admit that working with our 
Afghan and Pakistani partners is not always easy, but these 
relationships are advancing America's national security 
interests and walking away from them would undermine those 
interests.
    With that as context, let me report I have just completed a 
productive visit to both countries. In Kabul and Islamabad, I 
emphasized our three-track strategy of fight, talk, and build, 
pursuing all three tracks at once as they are mutually 
reinforcing, and the chance of success for all three are 
greatly increased by strong cooperation from the Afghan and 
Pakistani Governments. Let me briefly discuss each track.
    First, the fight. Coalition and Afghan forces have 
increased pressure on the Taliban, the Haqqani network, and 
other insurgents, including with a new operation in eastern 
Afghanistan launched within recent days. But our commanders on 
the ground are increasingly concerned, as they have been for 
some time, that we have to go after the safe havens across the 
border in Pakistan.
    Now, I will be quick to add that the Pakistanis also have 
reason to be concerned about attacks coming at them from across 
the border in Afghanistan. So, in Islamabad last week, General 
Dempsey, Director Patraeus, and I delivered a single, unified 
message. Pakistan's civilian and military leadership must join 
us in squeezing the Haqqani network from both sides of the 
border and in closing save havens.
    We underscored to our Pakistani counterparts the urgency of 
the task at hand, and we had detailed and frank conversations 
about the concrete steps both sides need to a take. I explained 
that trying to distinguish between so-called good terrorists 
and bad terrorists is ultimately self-defeating and dangerous. 
No one who targets innocent civilians of any nationality should 
be tolerated or protected.
    Now, we are not suggesting that Pakistan sacrifice its own 
security. Quite the opposite. We respect the sacrifices that 
Pakistan has already made, and it is important for Americans to 
be reminded over the past decade more than 5,000 Pakistani 
soldiers have been lost and tens of thousands Pakistani 
citizens have been killed or injured. That is why we are 
pursuing a vision of shared security that benefits us all.
    The second track is talking. And here, too, we are taking 
concrete steps with our partners. So in both Kabul and 
Islamabad I reaffirmed America's strong support for an 
inclusive Afghan-led peace process. And we have been very clear 
about the necessary outcomes of any negotiation. Insurgents 
must renounce violence, abandon al-Qaeda, and abide by the laws 
and constitution of Afghanistan, including its protections for 
women and minorities. If insurgents cannot or will not meet 
those red lines, they will face continued and unrelenting 
assault.
    And I want to stress, as I did in Kabul, that the hard-won 
rights of women and all Afghans cannot be rolled back and the 
growth of civil society must not be quashed.
    Now, there is no doubt that the murder of former President 
Rabani was a setback. But the Afghans strongly believe 
reconciliation is still possible, and we support that as the 
best hope for peace and stability in the region.
    Pakistan has a critical role to play and a big stake in the 
outcome. So we look to Pakistan to encourage the Taliban and 
other insurgents to participate in an Afghan peace process in 
good faith both through unequivocal public statements and by 
closing off the safe havens.
    We are working with the Afghan Government to help them 
secure commitments from all of their neighbors to respect 
Afghan sovereignty and territorial integrity and to support 
Afghan reconciliation. This will be a key focus when I go to 
Istanbul next week to meet with regional Foreign Ministers.
    For our part, the United States is working with the Afghan 
Government to conclude a new strategic partnership.
    And let me add, in response to the chairwoman's question, 
in 2011, we had three Washington-led rounds of discussions with 
the State Department leading an interagency team, including 
DOD, USAID, and the NSC. These discussions resulted in a text 
that is about 90 percent agreed to, including strong 
commitments on economic social development, democratic 
institution building, human rights, anti-corruption, and other 
important long-term reforms.
    Among other things, we envision establishing an 
Afghanistan-United States bilateral commission and associated 
implementation mechanisms to help our focus remain on what 
needs to be done during the transition process.
    Ambassador Crocker and General Allen are still working 
through some of these security cooperation issues with 
President Karzai. The negotiation is ongoing, but I want to 
assure the Congress that, although we do not expect this to 
take the form of a treaty or to require advice and consent of 
the Senate, we will consult with you on where we are in this 
process and I will ensure that any one who wishes to get a full 
briefing will get one and we will very much welcome your views.
    And in response to Congressman Chabot's point, we 
anticipate having a transition that does include security 
components, not only from the United States but also from NATO, 
commitments that were made at the Lisbon Summit. And, again, we 
look forward to consulting with you on that.
    And, finally, the third track is building. Building what? 
Building capacity and opportunity in Afghanistan, Pakistan, and 
across the region. Now, this is part of a clear-eyed strategy 
rooted in a lesson we have learned over and over again around 
the world. Lasting stability and security go hand in hand with 
greater economic opportunity. People need a realistic hope for 
a better life, for a job, for a chance to provide for their 
families. So it is critical to our broader effort that civilian 
assistance continue in both Afghanistan and Pakistan. And I 
thank Congressman Berman for raising that.
    Yet I will also be very clear that we have had to move 
rapidly and deeply to strengthen oversight and improve 
effectiveness, and I will be happy to answer questions about 
that.
    Early next week, I will be sending you a comprehensive 
status update on our civilian assistance, detailing our plans 
to shift from short-term stabilization to long-term 
development.
    Now, as the transition proceeds and coalition combat forces 
leave Afghanistan, there need to be realistic hopes for 
development. So we are working to achieve greater agricultural 
productivity, greater exploitation in a way that benefits the 
Afghan people of natural resources, increasing exports, and 
strengthening the financial sector.
    I really want to underscore the point that Congressman 
Berman made, which is really that we want to move from aid to 
trade. We cannot do that if we don't get reconstruction 
opportunity zone legislation which will lower tariffs on 
Pakistani and Afghan products and the enterprise fund, which 
will not require taxpayer dollars. This is what we did in 
Central and Eastern Europe, and it was a big help in convincing 
people that the free market was the way to go.
    And, finally, we are pursuing a broader long-term vision 
for regional economic integration that we call the New Silk 
Road. It is not just an economic plan. It talks about how we 
can get these countries that have so many problems with each 
other to begin cooperating. And to that end, I am very pleased 
by the progress that both India and Pakistan are making on the 
commercial front and the progress in implementing the transit 
trade agreement between Afghanistan and Pakistan.
    So those are our three tracks: Fight, talk, and build; and 
we are on all of them simultaneously. We believe this is the 
best place that we can be in moving forward, and I look forward 
to answering your questions.
    [The prepared statement of Secretary Clinton follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Ros-Lehtinen. Thank you so much, Madam Secretary. 
I will yield myself the time for the question.
    First to say that, Madam Secretary, I am gravely concerned 
about the safety of the residents of Camp Ashraf in Iraq. Many 
members, including the ranking member and I, have sought the 
administration's commitment to securing their protection, given 
the Iraqi Government's repeated failure to comply with its 
international human rights obligations to the Camp Ashraf 
residents. And in light of President Obama's announcements of 
the final withdrawal of American troops from Iraq we need to be 
confident that our administration is engaged with the 
Government of Iraq, the U.N. High Commission of Refugees, and 
others to ensure the welfare of Camp Ashraf residents and to 
resolve their long-term security goals.
    And my question, Madam Secretary, deals with my native 
homeland of Cuba, although in recent weeks I feel the need to 
carry my papers with me to find out when it is that I actually 
got to the United States.
    But, Madam Secretary, your administration has remained in 
opposition to many of the world's tyrants, to your credit, yet 
the U.S. continues to engage the Cuban regime. In March, you 
stated that Qadhafi should leave power. In June, you said that 
Salay should move out of the way. In July, you stated that 
Assad is not indispensable and we have absolutely nothing 
invested in him remaining in power.
    Yet, in stark contrast, this administration continues to 
engage the Cuban regime and provide the Castro brothers 
economic lifelines in the form of allowing increased travel 
opportunities, supporting their offshore oil drilling 
aspirations.
    Two weeks ago, in front of our committee, Under Secretary 
Wendy Sherman confirmed that the Department had recently met 
with Cuban regime officials to discuss the sad case of Alan 
Gross. Media reports have stated that State Department 
officials were willing to offer concessions such as allowing 
convicted Cuban spies to return to Cuba or taking Cuba off the 
state sponsor of terrorism list in order to obtain the release 
of Mr. Gross. The United States should not be negotiating with 
a state sponsor of terrorism. So I ask you, Madam Secretary, 
why is there a double standard with the Castro regime?
    Thank you.
    Secretary Clinton. Thank you so much for those two 
questions. Let me start on Cuba, and then I will go back to 
Camp Ashraf and our concerns about it.
    You know, our position has been the same for more than 50 
years. We think Fidel Castro should go. I mean, that is the 
unfortunate commitment that we have put forth over many years. 
Unfortunately, he doesn't seem to be going anywhere.
    We do worry greatly about the activities of the Cuban 
Government, and we have strongly supported the desire of the 
Cuban people to freely determine their own future, and it is 
our view that we should help those who are trying to work 
toward positive change. So we do support a wide variety of 
activities on the island. We interact with a broad cross-
section of individuals and groups in Cuban society; and we 
provide humanitarian assistance, including food, over-the-
counter medicines, and so much more.
    We think that that is a necessary kind of double approach. 
We want democracy for Cuba. We have always supported democracy 
for Cuba. We have tried to encourage changes and reform, but, 
at the same time, we are going to keep working with 
individuals.
    Chairman Ros-Lehtinen. Have we met with U.S. officials 
about Alan Gross or the convicted spy?
    Secretary Clinton. U.S. officials regularly meet with their 
Cuban counterparts, as I know you're aware, because we have a 
lot of areas of mutual concern. We have drug trafficking, we 
have immigration, we have all kinds of issues. And our main 
objective for the last 2 years has been to ensure Alan Gross' 
unconditional release. So at no point has the U.S. Government 
been willing to give unilateral concessions to the Castro 
regime or to ease sanctions as a means to secure Mr. Gross' 
release.
    But I will underscore we think it is a gross violation of 
his human rights and a humanitarian abuse that he has not been 
returned to his family, and we would like to see that happen as 
soon as possible.
    With respect to Camp Ashraf, which we are deeply concerned 
about, we know that there is an ongoing and very legitimate 
expression of concern. We have elicited written assurances from 
the Government of Iraq that it will treat Ashraf residents 
humanely, that it will not transfer residents to a country that 
they may have reason to fear, and we are pushing very hard to 
get the United Nations High Commission on Refugees to work with 
the residents of Camp Ashraf to get them into a safe place.
    Chairman Ros-Lehtinen. We appreciate that.
    Mr. Payne is recognized, ranking member on Africa, Global 
Health, and Human Rights.
    Mr. Payne. Thank you very much, Madam Chair.
    Let me commend you, Madam Secretary, for the outstanding 
job that you are doing. The recent five-country trip--they only 
talk about two, but I know you touched down in three others--is 
amazing. Your trip to Libya where the President had really 
asked the Europeans and NATO to lead and that we would come in 
and help out I think was a very successful strategy. I 
certainly commend the administration for living up to the 
agreement that President Bush made when he said that our troops 
should be out of Iraq at the end of this year, and I 
congratulate our Government for living up to that promise to 
have our troops back in America by the holidays. The Iraqi 
people want them out, the American people want them out, and I 
think they should be out.
    I certainly support what the administration has done in 
south Sudan. I happened to be in Juba at the celebration of the 
new country. But I would hope that we will give them all the 
support with President Salva Kiir and the south Sudanese 
people, and that we continue to watch Darfur and continue to 
support the TFG government in Somalia. We need to make that 
work and also to urge the Kenyans to assist, as they are doing 
now, to try to eradicate terrorists who are coming into Kenya 
and destabilizing the area.
    I also commend the President for the 100 troops that are 
going to the Central African Republic and to Uganda to train 
the Ugandans in trying to finally eliminate Joseph Kony who 
this House passed bipartisan legislation saying that he should 
go out. Many of my colleagues on the other side have been just 
as passionate about the fact that Joseph Kony needs to be 
eliminated, needs to be captured or taken out. For 25 years he 
has wreaked havoc on people. The horrendous acts that he has 
done are just unconscionable. Time is past that he should be 
taken off the face of this Earth.
    Let me just quickly get to what you are here about, 
Afghanistan and Pakistan. I almost forgot that.
    The U.S. strategy in Afghanistan has been based on the 
belief that developing Afghanistan's economy and institutions 
will win over the population to support the Afghan Government 
even after international forces draw down. Some analysts are 
concerned that the Afghan economy may enter a steep depression 
as international military involvement in Afghanistan winds down 
over the next 3 years. What steps has the U.S. taken to ensure 
that this depression does not happen? And I know you did 
mention the New Silk Road, the new Central Asia-South Asia 
trading hub that we are trying to create in Afghanistan. Will 
there be job training programs and community development so 
that that can overtake the military action?
    Secretary Clinton. Thank you very much, Congressman; and 
thanks, as always, for highlighting the important issues and 
security concerns coming out of Africa. I thank you for that.
    And I join with Congressman Berman in saluting the life of 
former Congressman Howard Wolpe, who I also had the privilege 
of working with both in the 1990s and as Secretary of State.
    With respect to the sustainability of the Afghan economy, 
you are right to raise the issue that when this enormous amount 
of international money that has been used inside Afghanistan 
begins to diminish that raises questions about sustainability.
    There are three quick answers I would give you.
    One, we are working to strengthen the capacity of the 
Afghan Government itself at both the national and the local 
level, because we think it is important to try to help them 
understand fundamentals like planning and budgeting. USAID is 
currently developing a set of measurements about sustainability 
and applying them to all of our programs.
    And, secondly, we are working on necessary reforms right 
now. I will give you a quick example. The Afghan power company, 
they have to learn to effectively collect revenue. They have to 
learn how to cover the costs of their operations.
    And we are also working with the Ministry of Public Works 
on the roads authority. Because the international community has 
built roads, but they have to learn how to maintain them, and 
that means collecting tolls or other tariffs.
    We are also working to make sure that we are coordinating 
with other donors. There are many big donations that come for 
infrastructure and training, and we are going to make sure that 
we are all on the same page.
    Chairman Ros-Lehtinen. Thank you so much, Madam Secretary. 
Thank you, Mr. Payne.
    Mr. Burton, the chairman of the Subcommittee on Europe and 
Eurasia.
    Mr. Burton. Thank you, Madam Secretary.
    Let me start by making a little statement.
    There are a lot of congressmen and congresswoman who are 
very concerned about unilateral action being taken by the 
administration in military fashion. Nobody mourns Qadhafi's 
leaving the scene, but we believe that Congress should be 
involved in the decision making process before we go to war. 
And that was of long duration. It cost $3 billion of taxpayer 
money. And I think the administration ought to be aware that 
there is a lot of concern among Democrats and Republicans that 
unilateral action is being taken without any consultation with 
Congress.
    Now, let me just talk about a couple of things and ask a 
question.
    In 1979, we supported, either tacitly or directly, the 
removal of the Shah, and the Ayatollah Khomeini came back and 
imposed Sharia law. He lined up 3,000 political prisoners at a 
wall and shot them and killed them, and 20,000 people who were 
sympathetic to the West were lined up against a wall and shot 
and killed. That is Sharia law.
    Now Tunisia has said they are going to have Sharia law. The 
interim Government of Libya has indicated they are going to 
have Sharia law. Under Sharia law, one of the things that 
really bothers a lot of people is, if you are an enemy 
combatant and you are defeated, your wife can be raped and it 
is all right. And I understand there are women who are being 
raped right now by the people that won the war because the 
people who supported Qadhafi had wives and they thought that 
was proper punishment. Sharia law is something that is anathema 
to most Americans.
    We have in Egypt the Muslim Brotherhood that is taking on a 
larger and larger responsibility, and some believe they are 
going to end up running that country. The entire northern tier 
of Africa may very well be under Sharia law, as well as Iran. 
And I am concerned and I hope my colleagues are concerned that 
we could be facing another Iran not only in Iran, but also in 
Libya, in Tunisia, in Egypt, and who knows about Syria.
    So I would like to know what the administration plans to do 
to make sure that we don't have a radical government taking 
over those places. I know you were just there in Libya. I 
watched on television your remarks, and I understand the 
position of the administration.
    But I will tell you. It really worries me not only from a 
security standpoint. We still get almost a third of our energy 
from that part of the world. And if we don't make sure that we 
don't have radical Islamist governments in that region, we 
could have a big, big problem like we have with Iran.
    And, with that, I will be happy to hear your comments.
    Secretary Clinton. Well, Congressman, I think that you have 
raised many different aspects of a question that is yet to be 
answered; and that is, what does democracy mean? What is the 
likely outcome of these changes?
    And we know from our very long history, far back beyond 
1979, that revolutions are unpredictable phenomena. Sometimes 
it works out well, as it did for us. Many times, it goes 
through really messy transitions, as it did for France, for 
example. And sometimes it ends up in a place that we certainly 
don't think reflects democracy as we define it.
    The United States is deeply engaged in and committed to 
working with these new leaders, many of whom have never been 
involved in politics before, to make it absolutely clear that 
there must be a renouncing of violence and military capacity if 
you are to be part of a democratically elected government, that 
there needs to be a respect for human rights, for women's 
rights, for the fundamental freedoms of speech and religion and 
all of the rest that we hold so dear.
    Sitting here today, I think a lot of the leaders are saying 
the right things, and some are saying things that do give pause 
to us. But I will assure you we are going to do all that we can 
within our power to basically try to influence outcomes.
    But the historic winds sweeping the Middle East and North 
Africa were not of our making. They were, in many instances, 
not even predicted. But they are going to have consequences, 
first and foremost, for the people of those countries and then 
for the rest of the world.
    Chairman Ros-Lehtinen. Thank you, Mr. Burton.
    Mr. Faleomavaega is recognized.
    Mr. Faleomavaega. I certainly want to personally welcome 
you, Madam Secretary, and want to commend you for the 
outstanding leadership that you have demonstrated not only in 
your capacity as the President's chief negotiator in just about 
anything and everything that goes on in the world but to 
certainly thank you for the services that you have given to our 
country. I deeply appreciate the opportunities that I have had 
in dialoguing with you one some of the issues that are 
important for the needs of our country.
    Just one question, Madam Secretary. Maybe I am being 
simplistic in trying to unravel--to understand a little further 
about the challenges that are before us as far as Pakistan and 
Afghanistan is concerned.
    There are 12 million Pashtuns living in Afghanistan, a 
couple of million Uzbeks, a couple of million Tajeks. It seems 
to me there is really no such thing as an Afghan, because there 
are so many different tribes that make up the country in 
Afghanistan.
    And right on the borderline of Pakistan there are 27 
million Pashtuns. And within those confines we end up with some 
27,000 Talibans that we are going after, hopefully, and trying 
to get them to straighten out in their ways and hopefully by 
the current process of trying to negotiate with them. We have 
got 100,000 troops right now in Afghanistan, I guess, with the 
purpose of going after the 27,000 Talibans and costing us about 
$120 billion a year. Are we still committed to 2014, Madam 
Secretary, for withdrawal from Afghanistan, given the 
tremendous amount of resource and problems that we are faced 
with in dealing with this?
    Secretary Clinton. Yes, Congressman, that is the 
commitment. It is a mutually agreed upon commitment by NATO 
ISAF and the Afghan Government and, of course, the United 
States. So that is our commitment.
    And, as you know, we have begun to transition security 
responsibility to the Afghan forces in a number of areas. There 
will be more announced shortly by the Afghan Government. And we 
have a plan that our military leadership is implementing to 
continue to advise and support as Afghans take the lead but to 
move away from any kind of ongoing combat responsibility by 
American or NATO ISAF troops.
    Mr. Faleomavaega. Thank you, Madam Secretary.
    The second question, like my colleague, our chairwoman, I 
am deeply concerned about the recent events that transpired in 
West Papua and Indonesia whereby the Indonesian military and 
police forces have arrested hundreds of unarmed and harmless 
civilians who apparently had a meeting in Jayapura. The Papuan 
People's Congress said that they met.
    And among those arrested is a dear friend, a traditional 
leader by the name of Forkorus Yoboisembut. This gentleman, 
Madam Secretary, wouldn't even hurt a fly. He's a traditional 
leader.
    Out of sheer frustration, 2.2 million West Papuans have 
been waiting with the Indonesian Government for well over 10 
years and was supposed to be given the special autonomy status, 
and the Indonesian Government hasn't done anything really to 
pursue and promote this. And I suspect out of frustration the 
West Papuans simply wanted to declare independence, and for 
this now the Indonesia Government is now accusing Mr. Forkorus 
of treason.
    And I met the gentleman. He is an elderly person, a 
traditional leader, wouldn't even hurt a fly; and I would 
really appreciate, Madam Secretary, that the administration 
would pursue this earnestly with the Indonesian Government.
    I realize always the answer has been this is an internal 
matter within the province of the Indonesian Government, but it 
does have a lot of serious international implications in terms 
of the military forces and how the Indonesian Government is 
pursuing this; and I just wanted to ask for your assistance and 
if we could work together in making sure that this traditional 
leader and others who have been arrested are properly given 
their due process in law.
    Secretary Clinton. Congressman, we will certainly follow up 
on that and consult with you about it.
    Mr. Faleomavaega. Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Mr. Turner is recognized for 5 
minutes.
    Mr. Turner. Thank you, Madam Chair.
    Thank you, Madam Secretary.
    I recently returned from Afghanistan and met with military 
and State people. There is a contrast between the optimism, at 
least that the military expressed, in achieving their goal in 
the next 30 months, which I think minimally is to thwart a base 
of operations. The State Department seemed less optimistic in 
establishing a legal system and a rule of law; and I would be 
interested in hearing what you think of this, whether the 
cultural divide between what we expect from the Afghanis and 
what is really practical that can be closed within at least a 
reasonable period of time. Certainly 30 months is going to be 
very difficult.
    Thank you.
    Secretary Clinton. Thank you very much, Congressman. And 
thank you for going on that trip, because I think it is 
important, and I hope you agree to see the situations first 
hand and meet and talk with people, and so we appreciate your 
trip.
    I think that the civilian presence in Afghanistan, which 
has been tripled in the last 2 years in response to what were 
clear deficiencies of attention in the prior years, has made a 
lot of progress. But it is a complicated undertaking, and I 
think that those with whom you spoke were being very candid 
with you, that it is something that is quite challenging.
    As I said in the beginning, we have made a lot of progress. 
We think that progress has made a difference. But you have got 
to remember that Afghans had a lot of experience fighting but 
not a lot of experience in putting together what we would 
consider a modern government and certainly very little 
experience in what we are hoping to see them move toward, which 
is a sustainable democratic government.
    So the progress is challenging, but it is continuing, and 
that is why it is important that we negotiate the strategic 
partnership documents so that we have an ongoing relationship.
    You know, there is no sensible way to compare any two 
nations, because they are each unique. But we do have some 
experience. You know, after the fall of the Soviet Union, the 
people living in those totalitarian states had little or no 
experience, unless they were quite elderly, in what a 
functioning democratic government even looked like, what a 
trade union looked like, what kinds of human rights should be 
respected. And I think it is quite an accomplishment for the 
people of those countries over the last 20-plus years to have 
made the progress that they have made.
    Well, we are starting on a very different level in 
Afghanistan. There is no real experience. They went from a 
monarchy that was a very loosely governing presence in much of 
the country to a succession of, first, invasion by the Soviet 
Union and the installation of a puppet regime, to the war 
lordism, the rise of the Taliban, in part as a reaction against 
what was not happening the people in the country thought was in 
their interest. This is a country that has been through so 
much.
    And I would add that, yes, even though there are different 
ethnic groups or different tribal and clan groups, they do 
consider themselves Afghans. They don't have any doubt in their 
minds about that. But how they work out the modes of 
cooperation are still to be determined.
    So we are entering this with I think the right dose of 
humility. I think in the beginning maybe we didn't have enough 
of that. We didn't know how difficult it would be to make that 
transition. But we are making progress, and we are going to 
stay with it. And on the civilian side will be with it after 
2014.
    Mr. Turner. Thank you.
    Chairman Ros-Lehtinen. Well played, Mr. Turner. The junior 
man on the totem pole stuck around and got to ask the Secretary 
a question.
    Mr. Berman, the old guy, is recognized.
    Mr. Berman. Young at heart.
    Madam Secretary, the administration has made it clear that 
the war in Afghanistan can only end through a political 
settlement. You have been quite candid that you will not 
support any agreement that gives up the hard-won rights of the 
Afghan people. The redlines you have previously mentioned 
aside, given the Taliban's brutal history and that the movement 
is so ideologically driven what makes you think, for example, 
they would agree to change course on ideology? How do we get 
them to change the way they see the world.
    Secretary Clinton. Well, Congressman, I am not sure that 
all of them would, and I am very realistic about that. We have 
had somewhere in the order of 2,500 fighters officially 
reintegrate. In other words, we have registration of them, we 
know that they have done it. Of those, there seems to be both a 
weariness with fighting and a recognition that the path that 
the Taliban had been on was not the right path.
    So this is part of the testing process that we have to be 
engaged in. And I think that the hard reality is that until we 
really put it to them in some kind of Afghan-led negotiations, 
nobody will be able to gauge that. We have followed some 
intelligence threads which suggest that there is a debate going 
on within the Quetta Shura about, for example, about letting 
girls go to school which is something that would seem to be to 
be absolutely a condition.
    So I think you are asking the right question, I am just not 
yet at the stage of how this is unfolding to be able to tell 
you are our chances 50/50, are they 40/60. We just don't know 
yet, Mr. Berman.
    Mr. Berman. Well, I understand. I want to get into an issue 
that has concerned me. It is a sensitive issue. And I had to 
miss your testimony because, all politics is local, and there 
is an issue in the Aviation Subcommittee of Transportation and 
Infrastructure. But last March, in accordance with Section 203 
of the Enhanced Partnership with Pakistan Act, you certified 
that Pakistan was continuing to cooperate with the United 
States in efforts to dismantle supplier networks, that it has 
demonstrated a sustained commitment and is making significant 
efforts toward combating terrorist groups.
    Given Admiral Mullen's recent statement, the discovery of 
Bin Laden in Pakistan, recent reports in the Indian press that 
the mastermind of the Mumbai attacks remains a key player in 
the affairs of LeT, despite being in custody for over 2 years. 
I am wondering do you have any regrets about making that 
certification. And is there anything on your recent trip, or 
anything else that has gone on in the last few weeks that makes 
you feel optimistic that the purposes we were trying to achieve 
in that certification requirement we can move forward on.
    Secretary Clinton. Well, Congressman, the certification 
that I signed with regard to Pakistan's role in combating 
terrorist groups, as you know, was mandated by legislation from 
the preceding fiscal year. And at the time I made the 
certification, I closely considered the requirements set forth 
in the statute, and I determined that on balance, Pakistan met 
the legal threshold. Now, one of the challenges is that there 
are a number of factors here. There was no doubt that Pakistan 
had entered the fight against terrorists and had made 
sacrifices for that fight. There was certainly a continuing 
intelligence cooperation particularly focused on the al-Qaeda 
operative that was proving to be helpful.
    Mr. Berman. Could I ask unanimous consent that the 
Secretary have an additional minute just to finish the answer 
to this question?
    Chairman Ros-Lehtinen. No, I am sorry. All animals are 
equal.
    Secretary Clinton. I would be happy to provide additional 
written material about that, Mr. Berman, because I know what a 
serious question it is, and I have to do this on an annual 
basis. And I also would point out that in the last 6 months 
from the operation in Abbottabad, we have had great success in 
taking out al-Qaeda leadership, and we have to weigh all of 
these factors.
    Chairman Ros-Lehtinen. Thank you, Madam Secretary. Mr. 
Smith is recognized. He is the Subcommittee on Africa, Global 
Health, and Human Rights chairman.
    Mr. Smith. I thank my distinguished chairman for 
recognizing me. Welcome, Madam Secretary. Let me ask a couple 
of questions. Ten years after the Taliban, not a single public 
Christian church remains in Afghanistan. As you know, two 
Christian Afghan citizens most certainly would have lost their 
lives had there not been a huge intervention. And we were part 
of that. You, I know, were part of that. But my question would 
be what are we doing to ensure that Christians and other 
minority religions are not subjected to increased repression? 
The U.S. Commission for International Religious Freedom said 
that the situation for Christians ``worsened in the past 
year.''
    In like manner, we are seeing the same thing in Pakistan. 
We all know that Pakistan's Minister for Minority Affairs 
Shahbaz Bhatti was assassinated. A terrible, terrible loss. He 
was opposing the blasphemy laws in Pakistan. And we know about 
other faiths, including the Hindus, it has been reported by the 
Human Rights Commission of Pakistan that 20 to 25 Hindu girls 
are abducted and converted to Islam every month. I just chaired 
a hearing about Coptic Christian girls, a 3-hour hearing, and 
the distinguished chairwoman was at that hearing. It was 
riveting that we now see in Egypt that young girls who happen 
to be Coptic Christians are abducted in their teenage years, 
12, 13, 14 years old, and then they are forced into Islam and 
then they are sold or given in marriage at age 18 to an Islamic 
man.
    There is even a very pathetic expression that they are 
Islamacizing the womb. In other words, they get a woman and 
they get any children she subsequently bears to be a member of 
the Islamic faith, all by coercion, all by kidnapping. And I 
haven't heard anything, frankly, from the administration on 
that, but that is Egypt, and perhaps you want to speak to that. 
But this deteriorating situation on religious freedom, that as 
we all know a fundamental tenet of human rights, is getting 
worse.
    And finally, to piggyback, I want to associate my remarks 
about the dual standard, or double standard, with regards to 
Cuba. You know, Fidel Castro is really given, I think, a large 
pass for his egregious human rights abuses in a way that is 
similar to what happens with Hu Jintao. Hu Jintao got a state 
dinner. Nobody has repressed human rights more than the 
President of China, Hu Jintao, and yet he was feted and treated 
with great honors where he should have been held to account for 
his egregious violations.
    I would ask, before yielding to your answer, please pick up 
the phone and call the Foreign Minister of China, and ask: 
``Where is Chen Guangcheng?'' Next Wednesday, I am chairing an 
emergency hearing of the China Commission. There have been 
rumors, reports, we don't know they are true, that he may have 
been beaten to death. As you recall, he is the blind activist 
lawyer, I know you know all about him, who has stood up for 
women who were being coerced into forced abortions and forced 
sterilizations in Linyi province.
    He took on their case and has come against the full fist, 
the iron fist of the Chinese dictatorship and has ever since, 
spent years in prison and house arrest. Now we hear he may even 
have been beaten to death. We don't know. But please call the 
Foreign Minister on that if you would, Madam Secretary.
    Secretary Clinton. Well, Congressman, I share not only your 
concerns, but your outrage over what we are seeing happening. 
We will follow up on your request to China. And specifically on 
the question of persecution, obviously what we are seeing is 
deeply distressing. And it is not only against Christians or 
against Hindus, it is also against different sects of Muslims. 
I mean, there are Islamic sects in Afghanistan and Pakistan and 
elsewhere that are also discriminated against, persecuted and 
their adherence brutally treated.
    This is one of our biggest problems in the world right now, 
is there needs to be a greater acceptance of religious 
tolerance, and in so many places, there is no history of 
religious tolerance. And I am searching for ways to be 
effective. You know, one of the things that we tried very hard 
to do is to work with a number of countries, including Muslim 
majority countries, the Organization of Islamic Conference, to 
begin to change the dialogue from something they wanted to call 
religious defamation, which would be a legal rationale for 
persecuting people who spoke out about their own religion or 
criticized someone else's to a broad acceptance that there 
needs to be an equation between freedom of speech and freedom 
of religion.
    I mean, we are trying many different approaches and will 
continue to do so.
    Chairman Ros-Lehtinen. Thank you, Madam Secretary. And I 
thank Mr. Smith. Mr. Sherman is recognized.
    Mr. Sherman. Thank you, Madam Secretary, for coming before 
us. I hear you have a busy schedule. And I missed your opening 
statement for the same reason as the ranking member, all 
politics is local, and our districts are co-located. My first 
questioner matter relates to the Sindh province of Pakistan. 
You may just want to respond for the record because that isn't 
one of the hot issues. But the Sindhis have been influenced by 
the Sufi strain of Islam, they have moderate values harmonious 
with American ideals.
    And I would hope that we would do all we could for rural 
Sindh that is suffering from this year's floods, which are on 
top of last year's floods, and that you would speak to the 
Pakistanis. You have so many issues to cover with them. But one 
is the disappearances of Sindhi activists in southern Pakistan. 
In this committee room, we dealt with the authorization bill. 
It may never become law, but it does reflect whatever wisdom 
there is on this side of the room. And we took a look at the 
Voice of America which has a budget of $750 million.
    And I believe it was unanimous to direct the Voice of 
America to spend at least 1.5 million of that, and we are 
talking about a small amount of money, broadcasting in the 
Sindhi language. Further research indicates that the best way 
to reach the people of Sindh would be on AM or medium wave 
broadcast originating from the UAE.
    Now, we already broadcast in Urdu into Pakistan, but the 
Sindhi language is spoken by far more people than the Urdu 
language. And while the Urdu language may be the language of 
preference by Islamabad, the language spoken in the homes in 
southern Pakistan is Sindhi. So I don't know if you have a 
comment on that or would just want to take that under 
advisement.
    Secretary Clinton. No, I think that is a very useful 
suggestion, and I will get back to you for the record.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Sherman. I appreciate that. I think we, or many of us 
saw this ad about Camp Ashraf featuring a 14-year-old girl who 
fears extermination. We face a tough circumstance in that we 
are withdrawing from Iraq. In the past, there have been, some 
would say, massacres, at least terrible instances in which tens 
of people have been killed.
    And there are press reports that the Iraqi officials say, 
well, don't worry about it too much, after all, these folks are 
on the U.S. terrorist list. What are we doing to assure that 
when we leave Iraq we will not see the massacre of 3,400 people 
at Camp Ashraf and how is it going on the court ordered review 
of whether the MEK should be on the terrorist list.
    Secretary Clinton. On those points in particular, 
Congressman, in accordance with the D.C. Circuit's 2010 ruling, 
the State Department is reviewing the designation. There will 
be a decision. It has to be done expeditiously but thoroughly, 
and we hope to have such a decision in the future. I would add 
that the current designation does not pose a bar to the 
resettlement of Ashraf residents in Europe. And the 
humanitarian situation at Ashraf, in our opinion, is also not 
related to the MEK's designation.
    And I think it is also important to recognize that we need 
to do as much as we can to move as many people out of the camp 
before the end of the year, and we are trying to do that. We 
are working primarily through the United Nations, and certainly 
with both the residents of Ashraf and the Government of Iraq to 
try to put in place a very rapid assessment of individuals. And 
we have urged the EU and other countries to favorably consider 
the resettling of any Ashraf resident granted refugee status 
because we want to shrink the numbers as best we can.
    Chairman Ros-Lehtinen. Thank you, Madam Secretary. Thank 
you, Mr. Sherman. Mr. Rohrabacher is recognized.
    Mr. Rohrabacher. Thank you very much. Welcome, Madam 
Secretary. And let me just note for the record that the 
chairwoman is not the only person who is deeply concerned about 
the Castro regime and the brutality and the horrible 
repercussions that we have suffered because we have prevented 
this gangster to ally himself with all the hostile elements of 
the world and the hemisphere, so we shouldn't take that 
lightly, and don't think of it just as the chairman's cause, 
but our cause.
    Second of all, you stated that we are going to do as much 
as we can in terms of Camp Ashraf. You are not doing as much as 
you can. It has been 500 days since the court ordered us to 
reconsider this terrorist designation, and that should be 
plenty of time to understand what the issues are. And other 
people around the world now have determined that they don't put 
them on the terrorist list, so we are not doing as much as we 
can, and I would hope that you take that up and do as much as 
you can to ensure there is not another massacre of people there 
that we could have prevented.
    Let us note that we have officially requested the State 
Department for information about the Camp Ashraf massacre. Do 
you intend to comply with that request as we have been told the 
State Department will, or are you backtracking from that 
commitment?
    Secretary Clinton. Well, Congressman, we will provide what 
information we can to you.
    Mr. Rohrabacher. Oh-oh. ``We can'' sounds like the 
operative words of how to get out of answering a question. You 
obviously have the records of your own department; are you 
going to provide them? You have a request from Congress, you 
have agreed to do it, and will you comply with that request?
    Secretary Clinton. We certainly will comply with the 
request.
    Mr. Rohrabacher. Okay. Thank you.
    Secretary Clinton. But I cannot tell you what will be in 
the reply. So that is the qualification of my answer.
    Mr. Rohrabacher. All right. There are Libyan funds that are 
frozen in the United States right now. How much did we spend to 
help the Libyans defeat their tyrant? I don't think it would be 
at all inappropriate for us to, at this time of economic crisis 
in the United States, to free some of those funds, or some of 
those funds that are frozen, put our request in to be repaid 
for what we did to help the Libyans win their freedom. Are we 
planning anything like that?
    Secretary Clinton. Well, I think, Congressman, the latest 
figures that I had is about $1 billion was spent. And I am sure 
the Defense Department would, that is really their money, so I 
will wait to see what their final figures are. But we--you 
know, we are in discussions with the Libyans about a number of 
issues that they have requested help from us. And it is a 
little challenging until they get a government, which, as you 
know, they don't officially have. And we are going to look to 
see how we can best coordinate and organize any kind of 
reimbursement for certain functions that we have performed. But 
there have been no decisions because there is no government yet 
to negotiate with.
    Mr. Rohrabacher. Let me suggest that it would be, I think, 
a very defendable policy, if not an admirable policy in terms 
of what the people of the United States might think, for us to 
ask for compensation at a time when we are borrowing money, 
$1.5 trillion a year, it is not right for us to borrow money 
from somebody else in order to help a group of people free 
themselves and put our people in debt for that. We should, if 
possible, the Libyans have enormous assets, require people like 
this to be able to repay us if we expect the American people to 
continue to support the cause of freedom throughout the world.
    With that said, let me just note, and I know there has been 
a lot of talk about this lately, I do not blame the President 
at all, and I am not here to talk about the job you are doing 
in terms of trying to pull them back from the missions in Iraq 
and Afghanistan. The call for extending our deployment in Iraq 
I do not believe reflects the desires of the American people, 
who are war weary right now. We cannot expend resources we 
don't have and we cannot keep sending our troops over to do the 
fighting for somebody else, when it is up to them at a certain 
point to defend themselves. Thank you very much, Madam 
Secretary.
    Secretary Clinton. Thank you, sir.
    Chairman Ros-Lehtinen. Thank you, Madam Secretary. Thank 
you, Mr. Rohrabacher. Mr. Cicilline.
    Mr. Cicilline. Thank you, Madam Chairman. Thank you, Madam 
Secretary. It is a great pleasure to have you before our 
committee. And thank you for the spectacular work you are doing 
on behalf of our country. I think, like many Members of 
Congress, am very concerned about the capability and the 
capacity and really the corruption, and those two things have 
been cited as really major obstacles to improving the rule of 
law in Afghanistan.
    So my question really is how do we ensure that the billions 
of dollars of U.S. taxpayer funds that are being spent in this 
country are being used for the intended purpose and used 
effectively when corruption and a lack of governmental capacity 
and capability remain two big obstacles? I am interested to 
know what your thoughts on how long it will take before these 
factors are no longer a major obstacle. And just to use an 
example, in the State Department CBO justification there is a 
call for $4.35 billion in funding, which includes a request of 
$1.1 billion for economic support funds. I mean, you take that 
investment and economic development in Afghanistan and compare 
it to our own: Sort of the two largest loan programs 
administered by the United States Small Business 
Administration, which total about $574 million, which is 
roughly one-third of the amount we are sending to Afghanistan 
for economic support, it is a very hard thing for my 
constituents to understand in this difficult economy that we 
are investing those kinds of resources to rebuild the economy 
in Afghanistan when we have such urgent needs here.
    And in the context of this lack of capacity and this 
pervasive corruption, it makes it even more difficult for 
people to understand. So I would love to know how you think we 
are proceeding on those fronts and when we can expect the 
Afghan people to have the ability to do this work on their own 
so that we can direct those resources back here to our own 
country and to the urgent needs facing our constituents in 
Rhode Island and in my district?
    Secretary Clinton. Well, thank you very much, Congressman. 
And I certainly understand and sympathize with the legitimate 
questions of your constituents and of Americans everywhere. I 
think that the drawdown of troops in Iraq represents a very 
large net savings to the American taxpayers. The withdrawal on 
a very measured basis from Afghanistan similarly provides, 
because our civilian assistance is frankly such a small 
percentage of the overall money that is spent, the vast 
majority of which comes from our DOD security forces.
    So I think that we are aware of that. We think we are on 
the right track. But specifically with respect to capacity and 
corruption, corruption remains a fundamental challenge, not 
only in Afghanistan, but frankly, around the world. And I find 
it one of our biggest problems. It is a cancer in so many 
countries whose leaders care more about enriching themselves 
and their families and their associates as opposed to making 
investments that will provide a better future for their own 
people.
    And so the key is to build institutional capacity, create 
systems. And that is exactly what we are doing in Afghanistan. 
We are taking an integrated civilian military approach, because 
again, the largest sums of money that people have worried about 
feeding corruption have come from the enormous amount of money 
coming in associated with our military activity. So both State 
and DOD, and of course USAID, are absolutely committed. We are 
promoting the enforcement of anticorruption laws and 
regulations; we are doing ethics trainings; we are including 
civil servants and judiciary personnel in that; we support the 
Major Crimes Task Force, which is intended to prosecute cases 
in the Afghan justice system; the FBI, Department of Justice 
and others are working with their counterpart agencies; we 
continue to go after the poppy trade and the corruption that 
comes from drug trafficking; we have improved our 
accountability by increasing vetting for those people who have 
anything to do with American funding; we have worked with our 
partners to do the same.
    So we are very much committed to transparency and 
accountability, to the rule of law, to monitoring and all of 
the steps that we are taking toward those ends. But we know it 
remains a problem as it does in so many of the other parts of 
the world where we do business.
    Mr. Cicilline. Thank you. I yield back the balance of my 
time.
    Chairman Ros-Lehtinen. Thank you very much. Judge Poe is 
recognized.
    Mr. Poe. Thank you, Madam Secretary. Thank you, Madam 
Chair. I will try to make this to the point. Last time you and 
I talked in this very room we talked about the safety of Camp 
Ashraf. That was in March. And then later in April the Iraqi 
soldiers came in and killed people in Camp Ashraf. People 
disagree on how that occurred, but people did die. Right now, 
the 31st United States is leaving. I am not discussing that. 
But also in the 31st, Maliki has made it clear that the camp is 
going to close. When we were in Iraq this summer, Chairman 
Rohrabacher, myself and others on this committee, we met with 
Maliki on the issue of Camp Ashraf. It got very heated. We 
wanted to go see the Camp. He refused to let us see it. And 
later we learned when we were flying around in a Black Hawk 
that we had been invited to leave the country based upon that 
discussion with him. But the number one thing he said about the 
way Iraq treated Camp Ashraf was the U.S. designation of the 
MEK. He spent all of his time saying this is the reason they 
are treated the way they are, because you, United States, have 
designated them as a foreign terrorist organization.
    My concern, first of all, is the safety of the people in 
Camp Ashraf when that 31st comes. They are in fear. 85 of those 
people, some are Americans and the others of that 85 that are 
there among the 2,000 are permanent residents of the U.S.
    So my question is what are we doing through the U.N. to 
make sure they extend the deadline so that people can do what 
is necessary through the U.N. to get out of Iraq and go 
somewhere in the world? And second, the long-term issue of the 
MEK designation? I am encouraged by your words last night that 
you made regarding that. So those are my two issues and my two 
questions to you, Madam Secretary.
    Secretary Clinton. Well, Congressman, I can assure you that 
I am personally very focused on trying to make sure that we 
protect the safety of the residents of the Camp. I and our 
Department and our administration strongly condemned the 
violence that led to the deaths. Regardless of how it happened, 
the fact is, you are right, 36 residents died because of the 
violence on April 8th. We are monitoring the situation as 
closely as we can. We see no evidence suggesting that there is 
any other attack, imminent attack on Ashraf, and we continue to 
urge the Government of Iraq to show restraint.
    As I said earlier, we do have written assurances from the 
Government of Iraq to treat the Ashraf residents humanely, to 
follow their international obligations which they have as long 
as the residents remain in the country, not to transfer anyone 
to any country where that person could be persecuted as a 
result of their political or religious beliefs, and so we are 
trying to nail down as much as we can to provide some 
protective screen for the residents.
    Now, we know that they have approached--that we have also 
pushed the UNHCR to have even more of a presence, to do more, 
to try to move as many of the status determinations as they 
can. So this is an area of deep concern to us, and we are 
moving on many fronts, and we are also going to move as 
expeditiously as possible to a final resolution on the 
designation.
    Mr. Poe. And do we have any timeframe on the designation?
    Secretary Clinton. I cannot be more specific than that, 
Congressman. As expeditiously as possible.
    Mr. Poe. Well, I will just want to re-urge you and the 
administration to make sure that when December 31st comes, bad 
things don't happen to those good folks in Camp Ashraf. And all 
of the politics, we need to set it aside, fulfill our 
obligation, since they put their weapons down as the MEK that 
they get refugee and asylum status somewhere in the world, but 
their safety is paramount. So I would just re-urge that, Madam 
Secretary.
    Secretary Clinton. I appreciate your urging, I appreciate 
the concerns and I take them very seriously, sir.
    Mr. Poe. I yield back, Madam Chair.
    Chairman Ros-Lehtinen. Thank you very much. And the Chair 
will recognize herself because there is no other member right 
now. Madam Secretary, if I could ask you to clarify the 
comments that you made last week that the U.S. has met with the 
Haqqani network, but also urge the Government of Pakistan to 
get tough on that very same Haqqani network which has directly 
killed scores of U.S. troops. And one of your senior officials 
said in an authorized news conference last week we were asked 
by ISI to give this a try. So which is it, Madam Secretary, 
crackdown or negotiate with the Haqqani network or a little bit 
of both?
    Secretary Clinton. It is both.
    Chairman Ros-Lehtinen. If you could elaborate.
    Secretary Clinton. It is both, Madam Chair. As I said, we 
want to fight, talk and build all at the same time. Part of the 
reason for that is to test whether these organizations have any 
willingness to negotiate in good faith. There is evidence going 
both ways, to be clear. Sometimes we hear that they will, that 
there are elements within each that wish to pursue that, and 
then other times that it is off the table. So I think that with 
respect to the Haqqani network, it illustrates this point. 
There was a major military operation that was held in 
Afghanistan just in the past week that rounded up and 
eliminated more than 100 Haqqani network operatives. And we are 
taking action to target the Haqqani leadership on both sides of 
the border.
    We are increasing our international efforts to squeeze them 
operationally and financially. We are already working with the 
Pakistanis to target those who are behind a lot of the attacks 
against Afghans and Americans. And I made it very clear to the 
Pakistanis that the attack on our Embassy was an outrage and 
the attack on our forward operating base that injured 77 of our 
soldiers was a similar outrage. And it was in both instances 
terrible, but the fact is we avoided having dozens and dozens 
of wounded or killed.
    Chairman Ros-Lehtinen. Thank you. And if I could ask a 
question related to the statement that President Karzai made. 
Just less than 48 hours after you and he held a press 
conference, President Karzai said, God forbid if there ever is 
a war between Pakistan and America then we will side with 
Pakistan. I wanted to ask you, is this something that he told 
you in your meetings? How do you interpret his comments? And a 
broader question, are Afghanistan and Pakistan reliable allies?
    Secretary Clinton. Well, first of all, President Karzai and 
I had a very productive meeting when I was in Kabul last week. 
We are making progress on a lot of issues and we are 
coordinating closely on both fighting the insurgents and trying 
to test out this Afghan-led reconciliation. So frankly, when I 
heard about the comment we immediately asked Ambassador Crocker 
to go in and figure out what it meant, you know, what the point 
of it was. And Ambassador Crocker, who you know, is one of our 
most distinguished experienced diplomats, reported back that he 
really believed that what Karzai was talking about was the long 
history of cooperation between Afghanistan and Pakistan, in 
particular the refuge that Pakistan provided to millions of 
Afghans who were crossing the border seeking safety during the 
Soviet invasion, during the warlordism, during the Taliban 
period, and not at all about a war that anybody was predicting, 
and that it was both taken out of context and misunderstood. So 
I think Ambassador Crocker is a pretty good guide to that.
    Chairman Ros-Lehtinen. He sure is. Thank you very much, 
Madam Secretary. Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Madam Chair. I get the good 
luck of being here for the second round. Madam Secretary, I 
think going back to--I wasn't very clear when Mr. Berman had 
raised a question again when the former chiefs or the Joint 
Chiefs of Staff, Mullen, as well as Secretary Panetta, are 
pretty scathing in terms of their attacks, I don't know if you 
want to call it attack, but to say that our partnership with 
Pakistan is something a lot to be said in terms of what had 
happened here with Haqqani. Is that--and I realize too that the 
Pakistan Government was very irritated by the comments it made. 
Where are we now exactly with the charges made by Mr. Mullen as 
well as Secretary Panetta in that regard?
    Secretary Clinton. Well, Congressman, I think everyone 
agrees that the Haqqani network has safe havens inside 
Pakistan, that those safe havens give them a place to plan and 
direct operations that kill Afghans and Americans. And we also 
agree, however, with what Admiral Mullen also said, is that 
there is no solution in the region without Pakistan and no 
stable future in the region without a partnership. So if you 
look at everything that Admiral Mullen said in his testimony he 
raised serious questions which our Government has repeatedly 
raised publicly and privately about the safe havens, but he 
also said that the bilateral relationship was critical and 
consequential and that we do have a lot of shared interests 
particularly in the fight against terrorism. So it is important 
to recognize that we are all balancing these two realities.
    I mean, it would be great if we could get rid of one, 
namely the safe havens or the difficulties that the Pakistanis 
themselves feel they have in taking the fight to the terrorists 
because they believe that they have already paid a grievous 
price and worry about how they can sustain that, but we operate 
on both those channels at one time.
    Mr. Faleomavaega. I wanted to raise the question too that I 
realize that for a good part of over 10 years now, it seems 
that our countries seem to be bogged down, just these three 
countries, Iraq, Pakistan and Afghanistan. That seems to be 
our--our whole foreign policy seems to be centralized just on 
these three countries. And I noticed with interest as Secretary 
Panetta now in his recent visit to Asia, does there seem to be 
a shift in paradigm in terms of what exactly are some of the 
priorities on how we look at the situation? Why are we so 
focused, or bogged down just on this one issue or dealing with 
these three countries when we have the rest of the world to 
deal with? Am I wrong in looking in terms of the recent 
statements that Secretary Panetta has made about the fact that 
our interests in Asia is just as critical and just as important 
as we are in other regions of the world?
    Secretary Clinton. No, you are absolutely right. As you 
recall, I have made a number of trips to Asia, my first trip to 
Asia. I just recently wrote an article for foreign policy 
pointing out we are making a pivot toward Asia. We think that 
it is very important to begin to focus on the challenges and 
the opportunities that Asia presents. I had a wonderful visit, 
as you recall, to one of our favorite Pacific islands. So this 
administration certainly is focused on Asia. We are looking at 
how we maintain our vigilance about terrorism, because we 
cannot forget that it is from the border regions in Afghanistan 
and Pakistan that we were attacked, and that was an immensely 
costly event in our history in terms of lives lost and dollars 
spent to recover from. So we did not choose where we had to 
focus in the last 10 years. But now we are in a position to 
begin to make that pivot. And there are many who believe, as I 
do, that much of the future of the 21st century is going to be 
written in Asia and the United States must be a resident power 
militarily, politically and economically if we expect to 
maintain our global leadership. So this is a very important 
commitment that I hope is a bipartisan commitment because we 
feel strongly it is in America's best interest.
    Mr. Faleomavaega. Thank you, Madam Secretary.
    Chairman Ros-Lehtinen. Thank you very much. And darn it, 
the gang is back. Mr. Royce is recognized for 5 minutes.
    Mr. Royce. Thank you. Welcome back, Madam Secretary.
    Secretary Clinton. Thank you.
    Mr. Royce. I have a question for you on the LeT, the 
organization that carried out the attacks on Mumbai. My 
terrorism subcommittee recently held a hearing on U.S.-India 
counterterrorism cooperation and a recommendation that came out 
of that hearing was that we should condition our assistance to 
Pakistan on their inclusion of LeT in terms of their 
engagement, in terms of their attempt to shut down this 
organization. It has got a campus that continues to recruit. It 
is an oddity because it has morphed from an organization 
focused on Kashmir, but now it has got global aspirations. We 
have made arrests here in the United States and so forth. So I 
was going to ask you, would you consider making that a 
condition in terms of that scorecard that reportedly we keep 
with Pakistan?
    Secretary Clinton. Well, Congressman, as you referenced in 
the beginning of your remarks, we have had intensive 
discussions with our Indian counterparts. On my last trip to 
India, DNI Director Clapper went with me and had many in-depth 
conversations. So I do not want to commit at this time to 
taking such a path because I think it is important that there 
be further consideration of all of the implications. Certainly, 
every time we meet with the Pakistanis, we press them on LeT 
about the continuing failure in our view to fulfill all of the 
requirements necessary for prosecution related to the Mumbai 
attacks, and we will continue to do so.
    Mr. Royce. Well, one of the concerns I have if we don't 
elevate this issue, Madam Secretary, if we don't drive this 
point home now, it seems to me that some of the ISI in their 
assistance to the LeT in orchestrating these attacks are 
setting in motion the types of policies that could lead to 
conflict between India and Pakistan. And I almost wonder, when 
you look at the Mumbai attacks, when you look at the attacks in 
Delhi and then you find the connection to ISI or former ISI 
officials who are involved in the operation; when you look at 
some of the other operations where you find out ISI was 
involved in the training, it leads you to question what is the 
intention from an intelligence perspective of sending in a 
force, allowing them sanctuary, allowing them to base on your 
home territory and then carrying out civilian terrorist attacks 
on a neighboring country.
    It would seem to me that the potential for conflict created 
by this type of tripwire is very, very great. And that is why I 
think this has to be elevated in terms of the discussion with 
Pakistan. I think it has to be conditional. It can't be the 
case where Pakistan says, well, we are helping with any 
terrorist organization that is targeting the leadership in 
Pakistan, but we are going to allow ISI agents to assist other 
terrorist organizations that are targeting neighboring states 
or, as Admiral Mullen said, targeting U.S. troops, that they 
get this kind of cooperation. It has to be broadened to 
include, in my view, the LeT. And I would ask you, do you think 
there is a potential for this to spin out of control in terms 
of the types of attacks that have been carried out on the 
capital and the major financial centers of India by the LeT?
    Secretary Clinton. Well, of course, we worry about that 
very, very much and we discuss it in great depth with our 
Indian counterparts because it is, first and foremost, a 
concern of theirs. It is obviously also concerning to us, but 
we have designated them, we are certainly raising their 
continuing presence and activities on a regular basis. But I 
think that our policy has to be carefully coordinated with the 
Indian concerns. As you know, India is trying to improve 
relations with Pakistan right now, and there are actually some 
very productive discussions going on.
    Mr. Royce. But perhaps Admiral Mike Mullen's words will 
allow us to carry this conversation on with Pakistan rather 
than India. I yield back.
    Mr. Burton [presiding]. The Chair will now recognize the 
ranking member of the Subcommittee on Western Hemisphere, Mr. 
Engel of New York.
    Mr. Engel. Thank you, Mr. Chairman. Madam Secretary, since 
you were my Senator for 8 years in New York, I know a lot of 
things about you, so first of all, I want to wish you a happy 
birthday.
    Secretary Clinton. Thank you.
    Mr. Engel. And second of all, I should ask you for your 
comments on this article from Time Magazine, Hillary Rodham 
Clinton and The Rise of Smart Power. So I don't know if you 
have any comment on that, but I want to comment on it.
    Secretary Clinton. I am speechless, Congressman.
    Mr. Engel. I think the country realizes the wonderful job 
you are doing and I really want to thank you. You know, we are 
talking about Pakistan and Afghanistan and we focus on the 
Middle East. I just want to throw in something about something 
you and I have spoken about a great deal, and that is the 
conflict between Israel and the Palestinians because it does 
impact on other countries in the Middle East. The Israeli prime 
minister has just said that he will negotiate with the 
Palestinians any place, any time, anywhere, and he is even 
talking about potential freezes on expansion of neighborhoods 
and things like that. Meanwhile, the Palestinians refuse to 
speak to the Israelis and instead still persistent going to the 
United Nations trying to get a unilateral Declaration of 
Independence instead of negotiating face-to-face. This Congress 
is going to anticipate that we will have legislation cutting 
off aid to the Palestinians if they are not serious about the 
peace process. I am wondering if you could comment on that. And 
then I have an Afghanistan question for you.
    Secretary Clinton. Well, Congressman, as you know, we are 
deeply focused on trying to move the parties to negotiations 
that would result in resolution of issues and the eventual two-
state outcome that is American policy and which I know you and 
I support. We have a quartet process that is currently 
operating. There were meetings held yesterday. And now the 
quartet envoys have met with both Israeli and Palestinian 
representatives. There has certainly been an emphasis on trying 
to get specific proposals made by both sides on territory and 
security in line with President Obama's comments last May. And 
we are pushing very hard for that to occur.
    Now, you are right, that there remain difficulties in 
getting the parties to sit down with each other, so we are 
pursuing these goals through what are called proximity talks 
which are not the preference, as you know. But we think that 
keeping this moving, keeping it alive as a possibility is very 
much in the interest of both, because one thing we have learned 
over now 20, 30 years of these negotiations is that a vacuum is 
not good for Israel, it is not good for the region, and so we 
want to keep some momentum going.
    With respect to aid for the Palestinians, I will certainly 
underscore publicly again our strong preference that aid not be 
cut, particularly aid for the security forces. And the 
maintenance of security in the Palestinian territories is very 
much in Israel's interest. Just last week, the Israeli general 
in charge of West Bank security publicly said do not cut 
resources to Palestinian security.
    So I would hope as the Congress considers these issues that 
we will consult closely and that there be a real recognition 
that we don't want unintended consequences, and we certainly 
don't want either a collapse of the Palestinian authority in a 
vacuum that could then be filled by radicals like Hamas and we 
don't want there to be a collapse of the security cooperation 
between the Palestinians and Israel.
    Mr. Engel. Thank you. Let me ask you a quick question about 
Afghanistan. I know there has been some criticism from my 
friends on the other side of the aisle about withdrawing from 
Iraq at the end of the year. I think the President got that one 
right. And I think my constituents are concerned that we don't 
remain bogged down in a ground war in Afghanistan forever and 
ever. We have been successful using drones and others to get at 
terrorists. And there, it seems to me, can be more efficient 
means in keeping us in Afghanistan forever and ever. I think we 
should speed up our withdrawal from Afghanistan. I would like 
to hear what your thoughts are.
    Secretary Clinton. Well, Congressman, there has been an 
agreement with our NATO allies that 2014 is the year.
    Chairman Ros-Lehtinen. Thank you, Madam Secretary. Thank 
you, Mr. Engel. Mr. Chabot is recognized.
    Mr. Chabot. Thank you, Madam Chair. Madam Secretary, in a 
recent interview when asked about negotiations with insurgents, 
you spoke of universal redlines specifically renouncing 
violence, renouncing ties to al-Qaeda and committing to abide 
by the Afghan constitution. Are these redlines preconditions to 
talks, and if so how is engaging with them in negotiations a 
coherent strategy when they reject our redlines in principle. 
And you mentioned in your opening statement and several times 
during your testimony here today the importance of protecting 
women's rights. And I happen to agree with you on that point. 
But can these rights be reconciled with the potential 
implementation of Sharia-based law, which is a stated objective 
of the insurgents that you are potentially offering a place in 
the Afghan Government.
    Secretary Clinton. Well, first, Congressman, they are 
outcomes that would have to be satisfied. You don't make peace 
with your friends and you rarely sit down to negotiate any 
peace with someone who has already agreed with you. It is 
through the process of negotiation that you test and determine 
whether the outcomes that you seek can be satisfied. So that is 
our intention and it is certainly a long, is part of a long 
line of how one negotiates to end conflicts like this. 
Secondly, with respect to the constitution and the laws of 
Afghanistan, which do protect the rights of ethnic minorities 
and of women, there is an absolute condition that we have said 
the outcome must be to meet that.
    I know that there is a lot of discussion about Sharia law 
and I think there is a lot of information about it and what it 
means and how it is applied that is difficult to assume. There 
are different countries with different kinds of applications of 
what they consider to be Sharia which is the law that arises 
out of the Koran in their interpretation. So I don't want to 
prejudge, but I think the rule of law is our guide and the 
constitution and the laws of Afghanistan, which do give respect 
to, and in some cases, adherence to Islamic principles is what 
we are demanding be respected.
    So I think that it might be useful to take a look at all 
the different meanings of that phrase and how it is applied 
because from time to time, I think it is not clear what the 
implications would be.
    Mr. Chabot. That is one area I would suggest and encourage 
the administration to take particular care in because the 
presence of Sharia law, in any form, in any government, could 
have potentially devastating effects on the rights of women, 
and I am sure you are aware of that.
    Madam Secretary, recent comments by Haqqani network leaders 
have suggested that we have been attempting bilateral 
negotiations with them in order to split them off from the 
Quetta Shura Taliban. The Haqqani network, however, has said 
that it will only negotiate with the Quetta Shura approval and 
participation. Are we prepared to, in effect, negotiate with 
Mullah Omar, and if so, under what circumstances and what would 
our conditions be? What is your assessment of the Haqqani 
network, and given the administration's intentions of 
negotiating with it, what role might it have in a future 
Afghanistan?
    Secretary Clinton. Well, Congressman, the negotiations that 
would be part of any Afghan-led peace process would have to 
include the Quetta Shura, and would have to include some 
recognition by the Quetta Shura, which based on everything we 
know is still led by Mullah Omar, that they wish to participate 
in such a process. That is what I meant when I said you don't 
make peace with your friends. We are pursuing every thread of 
any kind of interest expressed. You might have been voting when 
I said that the ISI asked us to meet with a representative of 
the Haqqani network. There was such a meeting. There was 
nothing, there was not a negotiation, there was no follow-up 
meeting. This was done, in part, because I think the Pakistanis 
hope to be able to move the Haqqani network toward some kind of 
peace negotiation, and the answer was an attack on our Embassy.
    Chairman Ros-Lehtinen [presiding]. Thank you, Madam 
Secretary. Thank you, Mr. Chabot. Mr. Meeks is recognized.
    Mr. Meeks. Thank you, Madam Chair. And Madam Secretary, let 
me also congratulate you and the Obama administration for the 
supreme work that you have been doing. And I think that the 
article that is talking about smart power is talking about how 
we are doing things differently. And it seems to me as we 
travel now I feel that when I talk to other nations, other 
countries, that they again feel included. And so that is 
leadership, but not leadership where it is my way or the 
highway, basic leadership where we are bringing the world back 
together or closer together to work to resolve problems in the 
world together.
    We have seen that with the fact that when we have civilian 
lives at risk, and that is what Libya was really all about, 
that is what Tunisia is all about. And the President kept his 
word and we worked it out and we saved hundreds of thousands of 
lives, but we did it not just by ourselves, we did it in a 
multilateral way, which is a very, very positive thing in my 
estimation, and that is what I think smart power is all about. 
Then talking about Afghanistan and Pakistan. So my first 
question is though Turkey seems to be a little bit removed 
geographically, but I know you are going to Turkey next week, 
and Turkey, I understand, have asserted themselves as keepers 
of the peace and they will be hosting this conference about 
building blocks in the Afghan reconstruction process next week.
    So my question to you, first, is has Turkey been otherwise 
engaged in the region? Have they been helpful or not helpful? 
Because that could be another partner that we could have in 
helping us in this crucial area of the world.
    Secretary Clinton. Well, Congressman, they have been both 
involved and helpful. Of course, Turkish groups serve in NATO 
ISAF. I remember my first trip to Afghanistan, Turkish troops 
were responsible for the airport in Kabul, and I remember 
meeting the Turkish general who was in charge. But Turkey also 
has a great ability to communicate with a lot of the leaders in 
Afghanistan, Pakistan and elsewhere, because, of course, it is 
a Muslim majority country. And it has a history of democracy 
and now an Islamic-based party, the AKP, that is leading the 
country. So Turkey has a great deal of credibility with a 
number of the countries, and therefore, its involvement is a 
very helpful assistance to us.
    Mr. Meeks. Likewise, I think that we need to move into a 
post Cold War conversation and dialogue with other countries. 
Russia, we had a reset agreement. So I was just wondering 
whether or not Russia has been involved in any of the 
Afghanistan-Pakistan issues at all in that region?
    Secretary Clinton. Well, for a long time Russia wasn't 
particularly involved, nor was it welcome because of the 
invasion by the Soviet Union and the many years of brutal 
conflict that ensued. In recent years, however, and in part 
because of our reset, Russia has been helpful. They have 
cooperated with us on the northern distribution network, which 
is our alternative route to get troops and equipment into 
Afghanistan when the Pakistani route is either unavailable or 
under pressure.
    Russia is also now participating in many of the discussions 
about the path forward. Because remember, Afghanistan has been 
a crossroads for conflict between and among all of its big 
neighbors, Pakistan, Iran, India, China, Russia. And so Russia 
very much wants to see a stable Afghanistan. It worries greatly 
about the heroin trade that comes out of Afghanistan, and that 
is a big domestic problem for Russia. So we are appreciative of 
the role that they are now playing.
    Mr. Meeks. Finally, Madam Secretary, as we pull out of 
Iraq, and I know the agreement about 2014 is Afghanistan, I am 
wondering what is the response of NATO and ISAF and the Euro-
Atlantic partnership Council, the Istanbul Initiative and the 
contact countries? Do these organizations still remain as a 
cohesive command, and what role will they be playing in the 
region generally? I just thought staying together in that 
regard is tremendously important.
    Secretary Clinton. I think, Congressman, the commitment 
that was made last year, or earlier this year, I guess, at the 
Lisbon NATO Summit to remain involved to have an enduring 
partnership with Afghanistan, was a very strong signal that 
NATO countries understand that the stability of Afghanistan 
affects their national security as well.
    Chairman Ros-Lehtinen. Thank you, Madam Secretary. Mr. 
Wilson is recognized.
    Mr. Wilson. Thank you, Madam Secretary. Thank you for being 
here today.
    I was really very impressed by your visit to Pakistan. I 
have had the privilege of visiting there, and I was so 
impressed by their military. We were there to encourage the 
Pakistani military and the U.S. Marines for their earthquake 
recovery several years ago in Muzaffarabad. The organization 
was professional, the military itself was very, very positive. 
In particular, I was very pleased. There was a young U.S. 
Marine who was of Pakistani-American heritage that had been 
trained at Parris Island in South Carolina, and to see our 
working together because we can and we should.
    With that in mind, the foreign assistance programs that we 
have in Pakistan that you have helped initiate, do you believe 
they are making sufficient progress, and by what metrics are 
you judging the level of progress.
    Secretary Clinton. Congressman, first, thank you for 
traveling there, and I share your very strong endorsement of 
the positive work that was done between the Pakistani military 
and United States military in earthquake relief, and it was a 
real model and we are very proud of that.
    With respect to the civilian assistance, we actually do 
think that we are making a difference, but it sometimes gets 
overwhelmed by all of the other activities that go on in our 
relationship. We will be sending you the latest status report 
on what we have done next week, I think. And we have built 
roads, we have increased their energy production, we have the 
world's largest Fulbright exchange. The assistance we give to 
civil society.
    I did a town hall meeting in Islamabad and several people, 
both publicly and privately, thanked us for the programs that 
had made a difference in their understanding of how to put 
together voluntary organizations, how to engage with their 
government.
    None of this is easy and none of it, frankly, is without 
challenge, but I really believe we have to stay the course on 
this.
    Mr. Wilson. Also I have been very encouraged that with 
India, that Pakistan is developing a most favored nation trade 
status with India. I have been the co-chairman twice of the 
India caucus, and I have a deep interest and actually the 
biggest beneficiary of a level of stability in Pakistan is 
India. And why do you think this is moving at this time and 
what can be done to promote a level of trade and positive 
contact between India and Pakistan?
    Secretary Clinton. Congressman, I agree with you that the 
real game changer in the region is not so much our bilateral 
relationship as the relationship between Pakistan and India. 
And the more that there can be progress, the more likely there 
can be even more progress.
    So we have, in Pakistan today, a leadership, both civilian 
and military, that wants to see progress with India, and we 
have the same on the Indian side. There have been successful 
visits just in the last several months at the Foreign Minister 
level, the commerce minister level, announcements have been 
made to try to streamline visas for businesses, do more to 
accelerate movement across borders. And then the most favored 
Nation status is a really important development.
    So we encourage it. We try to tell both sides how much it 
will change their relationship. And when I was in Chennai last 
summer, I spoke about a new silk road where goods could go from 
Chennai up to Kazakhstan and it would go through Pakistan, it 
would go through Afghanistan.
    I firmly believe greater regional economic integration 
would revolutionize the economy in Pakistan. You know, India is 
a huge market. And Pakistan produces things that India needs, 
but they don't get into India in any direct and cost-effective 
way. So the more we can do that, the better.
    Mr. Wilson. I share your enthusiasm, and indeed all of 
Central Asia could benefit so much even into western Siberia. I 
appreciate your enthusiasm for that recognition of it, 
promotion of it, and every effort to reduce and eliminate 
cross-border terrorism which has been such a tragedy for the 
people of India.
    I yield the balance of my time.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Wilson. Mr. 
Carnahan is recognized.
    Mr. Carnahan. Thank you. Welcome back, Madam Secretary. I 
want to try to get at least one comment in and a couple of 
questions in here with my allotted time.
    First, as you know with Chris Smith, my colleague and co-
chair of the Bosnian Caucus, so I am taking an opportunity to 
make an off-topic comment like others have done today, and I 
represent one of the largest populations of Bosnians in the 
country in St. Louis. But as we all know, reforms are stalled, 
progress is in question, and there is increasing risk to the 
region from inaction.
    My comment is that we need a solution, but first we really 
need a vehicle that can bring together the Bosnian people, 
their leaders, neighboring countries, the EU and of course U.S. 
leadership is essential. So I would hope that we could work 
with you and the appropriate folks in the Department to look 
for such a vehicle to move that process forward so it doesn't 
backslide and create what I think could be a big problem.
    Back on topic here, as you know, I have long supported 
active U.S. engagement around the world. I believe the Obama 
administration has shifted, and certainly your leadership to a 
policy of smart power and responsible participation in 
international organizations has been in our great interest, our 
security interest, our economic interest and our values around 
the world. The United Nations assistance in Afghanistan has 
been essential in developing that country, also engages 80 
percent of the cost with our partners that are helping share 
that burden.
    My question is to ensure that UNAMA has the ability to take 
on an even bigger role as the U.S. prepares to draw down its 
troop presence in the future and also what effect would the 
cuts proposed by this committee have on the U.N.'s ability to 
pursue that important work?
    Secretary Clinton. Congressman, first, we would be 
delighted to work with you and Congressman Smith on Bosnia 
because we share your concerns and we would love to consult 
with you. So I will reach out and we will set up a time to do 
that.
    On UNAMA, I think their activities in Afghanistan are 
essential to the safety and security of our troops, our 
civilian employees and the success of the transition. And as I 
wrote to the chair earlier this month, I am deeply concerned 
that the proposed U.N. reform bill mandates actions which would 
severely limit U.S. participation in the U.N., and therefore, 
greatly harm our interests, put aside anybody else's interest. 
I am focused first and foremost on ours.
    The bill's requirement that the U.S. withhold 50 percent of 
its contribution until the U.N. shifts to a voluntary funding 
scheme for most of its programs would undermine our leadership 
at a time when we really have to be at the very forefront, and 
we are being asked now to do more with less anyway. We get a 
lot for our investments out of UNAMA because as you say, the 
bulk of the funding is carried by others. And they are an 
absolutely critical partner in building Afghan civilian 
capacity, monitoring human rights, supporting Afghan elections. 
Everything we talked about today we partner closely on a 
literally hour-by-hour basis with UNAMA. And if we can't depend 
on UNAMA, we will have to pay for and invent some other entity 
because we don't have another partner that has the credibility 
or the reach that UNAMA has.
    Mr. Carnahan. Thank you. Finally, I want to get your brief 
comment. You have been a great champion for including 
minorities, and especially women in transition to Afghan 
control. Just give us a brief synopsis on what the 
administration is doing to prepare for the upcoming Bonn 
Conference and beyond to ensure that that happens.
    Secretary Clinton. Well, I thank you again, Congressman, 
because you have been a great champion for the women of 
Afghanistan as well.
    We are requiring a lot of emphasis by the United States and 
our partners on what is happening with women in Afghanistan. I 
met with a group of women leaders when I was there. And we 
expect there to be a process where women are involved at all 
levels in the peace and reconciliation effort, which they then 
can speak for themselves and have their own say about their own 
rights.
    And so I will give you further information about that. But 
we have made specific requests to the Government of Afghanistan 
that they be included.
    Chairman Ros-Lehtinen. Thank you so much.
    And before I recognize Mr. Mack, I would like to tell the 
members of our committee that per a request from the Secretary 
that Mr. Berman and I had agreed to, she would be departing 
after Mr. Mack's questions because that will bring her to her 
other duties.
    Mr. Mack is recognized, the Subcommittee on Western 
Hemisphere chair.
    Mr. Mack. Thank you, Madam Chair. It is great to see you 
again, Secretary Clinton.
    I am going to switch gears a little bit as well. As you 
know, I serve as the chair of the Western Hemisphere 
Subcommittee, so there is a lot to talk about.
    But I wanted to talk a little bit about Fast and Furious. 
And specifically, at what point did the State Department learn 
of Operation Fast and Furious?
    Secretary Clinton. Congressman, I don't know the exact 
time. I can tell you that based on our information from the 
part of the State Department that would deal with this kind of 
issue, we have no record of any request for coordination. We 
have no record of any kind of notice or heads up. And my 
recollection is that I learned about it from the press. That is 
my recollection.
    Mr. Mack. So I think then I know the answer to this 
question but I will ask anyway. Did the State Department issue 
the Justice Department a license or a written waiver in order 
to allow for the transfer of thousands of weapons across the 
U.S.-Mexico border?
    Secretary Clinton. Congressman, this is the first time I 
have been asked this, and I can tell you that based on the 
record of any activity by the bureau that would have been 
responsible, we see no evidence. But let me do a thorough 
request to make sure that what I am telling you reflects 
everything we know.
    Mr. Mack. Thank you. That would be greatly appreciated. I 
wrote a letter to you yesterday. I am sure you got it and you 
have read it.
    Secretary Clinton. I thought it was for my birthday.
    Mr. Mack. Happy birthday.
    Under the Arms Export Control Act, the Justice Department 
was required to receive a written waiver from the State 
Department to account for their intent to cause arms to be 
exported to drug cartels in Mexico. If no such waiver was 
received, Justice Department officials have violated the law 
and you would agree with that, correct?
    Secretary Clinton. I cannot offer an opinion. I don't know. 
I mean, this is the first time I am being asked.
    Mr. Mack. I am not asking you if there was such a written 
request, but if they hadn't asked and received, by law, the 
Justice Department would be violating U.S. law.
    Secretary Clinton. I cannot offer you any opinion on that. 
I don't have the information or any analysis. I can only tell 
you the facts as we know them in the State Department.
    Mr. Mack. I will submit then and say that if the law says 
that they have to get a written, if the State Department is 
required to give a written waiver for the cause of arms to be 
exported to drug cartels in Mexico, and they didn't do that and 
that didn't happen, then they are in violation of the law. So 
the question here is, who do we hold responsible?
    I think there is a lot of frustration, at least for myself, 
that when we hear Mexico and President Calderon complain so 
much about guns moving south across the border to learn that 
our Government was involved in the delivery of those guns is 
quite concerning, and I am sure that you feel the same way. But 
we are looking for answers as to who knew what, when, and why 
and how this happened.
    So I look forward if you would get back to me and the 
committee about the waiver and whether or not the State 
Department issued that waiver.
    Second, I wanted--do you agree with Ambassador Brownfield 
that there is an insurgency in Mexico that are using terrorists 
tactics in Mexico.
    Secretary Clinton. Well, Congressman, I have expressed my 
concern about that in the past. We are sensitive to the 
characteristics that some of these drug traffickers have 
adopted that certainly resemble terrorist activities. And we 
are also aware of the concern by the Mexican Government that 
we, in their view, not mix apples and oranges, so to speak. 
Let's focus on criminality, let's not mix it with something 
else. So this is an ongoing discussion that we have with our 
friends in Mexico.
    Mr. Mack. She is going to gavel me down. But you in the 
past have identified it as an insurgency?
    Secretary Clinton. I have said that it has characteristics 
of an insurgency, but I am very sensitive to the legitimate 
questions that the Mexican Government raises about really 
whether those characteristics are such that it should be 
defined as that.
    Chairman Ros-Lehtinen. Thank you so much, Madam Secretary, 
Mr. Mack.
    Madam Secretary, I want you to know that the preparations 
for this oversight hearing were done by our Afghan war vets, 
two full committee majority staff members, Matt Zweig and Greg 
McCarthy, and our wonderful Defense Department fellow, Emiliano 
Tellado.
    Thank you so much. Pleasure having you here, and the 
committee is now adjourned.
    [Whereupon, at 12:15 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<F-dash>\<Copyright><pound><Rx><Rx><pound><script-l><script-l><variable>
                      stat<box><acctof><box><Rx>t\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


   <F-dash>\<diamond><brit-pound><box><natural><loz><script-l><box> 
                      stat<box><acctof><box><Rx>t\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
          <diamond><brit-pound><natural><loz><script-l><box>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


  <F-dash>\<because><F-dash><Register>s<ellipse><ellipse><diamond>ass\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
